.,~ ~
( f:
"t1'.i.t
      .(l-"4JO
 +'~4"OVIClS.Ú'.
                       DEPARTMENT
                       DEPARTMENTOF
                                  OFHEALTH
                                    HEALTH&.
                                           &. HUMAN
                                              HUMANSERVICES
                                                    SERVICES                                             Office of
                                                                                                        Office  of Inspector


                                                                                                        Washington,
                                                                                                                   Inspector General


                                                                                                        Washington, D.C.
                                                                                                                             General


                                                                                                                     D.C. 20201
                                                                                                                           20201




                                                           MAY 22 002009
                                                           MAY       2009

                 TO:
                 TO:             Charlene Frizzera
                                 Charlene  Frizzera
                                 Acting Administrator
                                 Acting Administrator
                                 Centers for
                                 Centers for Medicare  Me' idIdServices
                                             Medicare&&Me'      Services


                 FROM:         L&~
                            ~:;~ty¿&~  Inspector
                            ~:;~ty Inspector     General
                                             General  forforAudit
                                                             AuditServices

                                                                   Services


                            Review
                 SUBJECT: Review ofof OxaliplatinClaims
                                    Oxaliplatin   ClaimsProcessed
                                                         Processed by National
                                                                      National Government Services for
                                                                               Governent Services  for
                                 Calendar Years 2004 and 2005
                                                         2005 (A-05-09-00010)
                                                              (A-05-09-00010)


                                              of our final report on oxaliplatin claims processed by
                 Attached is an advance copy of                                                      by National
                 Government Services   for hospitals  in Michigan,   Wisconsin, Illinois, and Ohio  for
                              Services for hospitals Michigan, Wisconsin, Ilinois, and Ohio for calendarcalendar years
                                                                                                                  years
                 (CY) 2004
                 (CY)  2004 and
                             and2005.
                                 2005. We
                                        We will   issue this
                                            will issue  this report
                                                             reportto
                                                                    toNational
                                                                      NationalGovernment      Services within
                                                                                Governent Services      within 55
                 business days.
                 business days.                                                           .

                 Oxaliplatin is
                              is aa chemotherapy
                                    chemotherapy drug
                                                    drug used
                                                          used to
                                                                to treat
                                                                   treat colorectal
                                                                         colorectal cancer.
                                                                                    cancer. During our audit period
                 (CYs
                 (CY s2004
                        2004and
                              and2005),
                                     2005),Medicare
                                            Medicarerequired
                                                       requiredhospital
                                                                 hospitaloutpatient
                                                                           outpatientdepartments
                                                                                      departmentsto
                                                                                                  to bill one service
                                                                                                     bil one  service unit
                                                                                                                       unit
                 for
                 for every
                     every 55 milligrams
                              millgrams of oxaliplatin administered.
                                                           administered. Before July 2003,
                                                                                        2003, Medicare
                                                                                              Medicare required
                                                                                                          required billing
                                                                                                                   biling
                 one service
                      service unit
                              unit for
                                     for every
                                         every 0.5
                                               0.5 milligrams  administered.
                                                   millgrams administered.

                 Our
                 Our objective
                     objective was
                               was to
                                    to determine,
                                       determine, for selected payments, whether hospitals billed National
                 Government   Servicesfor
                 Governent Services     forthe
                                            thecorrect
                                                correct number
                                                        number of
                                                               of service
                                                                  service units
                                                                          units of
                                                                                of oxaliplatin.

                 For
                 For all
                     all 88
                         88 payments
                             paymentsreviewed,
                                        reviewed,10 10hospitals
                                                        hospitalsbilled
                                                                    biledNational
                                                                          NationalGovernment     Services for
                                                                                    Governent Services     for the
                                                                                                               the incorrect
                 number
                 number ofof service
                             service units
                                      units of
                                            of oxaliplatin.  As aa result, the hospitals received overpayments totaling
                                               oxaliplatin. As
                 $2,216,783
                 $2,216,783 during
                              during CYs
                                      CYs 2004
                                            2004 and
                                                  and 2005.
                                                       2005. These overpayments occurred primarily because the
                 hospitals
                 hospitals did
                            did not
                                not update
                                    update their
                                            their systems
                                                  systems following
                                                            following aa change
                                                                          changeininMedicare
                                                                                     Medicarebilling
                                                                                                biling guidance.

                 We
                 We recommend
                     recommendthat
                               thatNational
                                   NationalGovernment  Servicesrecover
                                            Governent Services  recover the
                                                                         the $2,216,783
                                                                             $2,216,783 in
                                                                                        in overpayments
                                                                                           overpayments to
                 hospitals.

                 In
                 In written
                    writtencomments
                            commentson
                                     onour
                                        ourdraft
                                            draftreport,
                                                   report,National
                                                           NationalGovernment    Services agreed
                                                                    Governent Services    agreed with our finding
                                                                                                          finding
                 and
                 and recommendation
                     recommendation and
                                     and said
                                         said that
                                              that it had recouped all of the
                                                                          the outstanding provider overpayments.
                                                                                                   overpayments.

                 If
                 If you
                    you have
                        have any
                             any questions
                                 questions or
                                           or comments
                                              comments about about this
                                                                   this report,
                                                                         report, please
                                                                                 please do
                                                                                        do not
                                                                                           not hesitate
                                                                                                hesitate to
                                                                                                         to call
                                                                                                            call me,
                                                                                                                 me, or
                                                                                                                     or
                 your staff may contact George  M.     Reeb,  Assistant  Inspector  General  for the Centers
                 your staff may contact George M. Reeb, Assistant Inspector General for the Centers for       for
                 Medicare
                 Medicare &&Medicaid
                              MedicaidAudits,
                                        Audits, atat (410)
                                                      (410)786-7104
                                                           786-7104or   orthrough
                                                                           throughe-mail
                                                                                    e-mailatatGeorge.Reeb@oig.hhs.gov
                                                                                               George.Reeb(ioig.hhs.gov
Page 2 – Charlene Frizzera


or Marc Gustafson, Regional Inspector General for Audit Services, Region V, at (312) 353-2621
or through e-mail at Marc.Gustafson@oig.hhs.gov. Please refer to report number
A-05-09-00010.


Attachment
     (~
     ,:i'r
                                 OEFARTMENT OF
                                 DEPARTMENT OF HEALTH
                                               HEALTH AND

                                                233
                                                      AND HUMAN
                                                  oFFICEOF
                                                 oFFICE
                                                          HUMANSERVICES
                                                         OFAUDIT
                                                233NORTKMICHIGAN
                                                                SERVICES
                                                            AUDITSERVICES
                                                                  SERVICES
                                                    NORTKMICHIGANAVENUE
                                                   CHICAGO, ILlINOIS
                                                   CHICAGO,
                                                                      AVENUE
                                                            ILJ-INOIS 60601
                                                                      epe01
                                                                                                          REGIONV
                                                                                                          REGION
                                                                                                          OFFIc:e:OP
                                                                                                                    V
                                                                                                           OFFiCe: 01"
                                                                                                     INSPECTR
                                                                                                      INSPIl:CfORØENERAL
                                                                                                                 GENERAL




                                                  MAY 22 772009
                                                  MAY       2009
Report Number: A-05-09-000 10
       Number: A-05-09-00010

Ms. Sandy
Ms. Sandy Miller
          Miler

President
National  Governent Services
National Government   Services
8115 Knue Road
Indianapolis, Indiana 46207
                      46207

Dear Ms.
Dear Ms. Miler:

         Miller:

Enclosed is     is the
                    the U.S.
                          U.S. Department
                                  Deparment of        of Health and  and Human
                                                                            Human Services
                                                                                    Services(HHS),
                                                                                             (HHS),Office
                                                                                                    Offce ofInspector
General (OIG), final     final    report     entitled    "Review        of
                                                                       of   Oxaliplatin Claims Processed by National
Government
Government           Services
           Services for             for2004Calendar
                        Calendar Years      and 2005." WeYears    2004
                                                         wil forward        of 
 2005." We will forward a copy of this report
                                                                     a copy and

to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHSHHS action official  official will      make final
                                        wil make         final determination
                                                                 determination as as to
                                                                                      to actions
                                                                                         actions taken
                                                                                                  taken on
                                                                                                        on all
                                                                                                           all matters
                                                                                                               matters reported.
                                                                                                                        reported.
We
We    request
   request that youthat   you
                    respond      respond
                            to this            to this
                                    official within       official
                                                    30 days            within
                                                            from the date of  30 days from the date of this letter.
                                                                                                               letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to
          to the Freedom ofInformation
                           of Information Act, 5 U.S.C. § 552, OIG reports generally are made
available to the
          to the public to
                        to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report wil
    Act. Accordingly,              willbe
                                        beposted
                                            postedon
                                                  on the
                                                      the Internet
                                                           Internet at
                                                                    at http://oig.hhs.gov.
                                                                       http://oig.hhs.gov.

If you have
       have any questions or comments about this report, please do not hesitate to call me, or
contact Jaime
        Jaime Saucedo,
              Saucedo, Audit Manager, at (312) 353-8693
                                                 353-8693 or through e-mail at
Jaime.Saucedo@oig.hhs.gov.    Please refer
Jaime.Saucedo(ioig.hhs.gov. Please   refer to
                                           to report
                                              report number
                                                     number A-05-09-000l0
                                                            A-05-09-00010 in in all
correspondence.

                                                           Sincerely,



                                                         ~GX:
                                                         ~GZ:
                                                           Regional Inspector General
                                                           Regional
                                                            . for
                                                              for Audit Services


Enclosure
Page 2 – Ms. Sandy Miller


cc:

Ms. Sarah Litteral
Director, Part A/RHHI Claims
National Government Services
9001 Linn Station Road
Louisville, Kentucky 40223

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF OXALIPLATIN
    CLAIMS PROCESSED BY
   NATIONAL GOVERNMENT
SERVICES FOR CALENDAR YEARS
       2004 AND 2005




                    Daniel R. Levinson
                     Inspector General

                        May 2009
                      A-05-09-00010
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services, which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments. Medicare uses an outpatient prospective payment system to pay
for hospital outpatient services.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. During our audit period
(calendar years (CY) 2004 and 2005), Medicare required hospital outpatient departments to bill
one service unit for every 5 milligrams of oxaliplatin administered. Before July 2003, Medicare
required billing one service unit for every 0.5 milligrams administered.

During our audit period, United Government Services was the fiscal intermediary for Michigan
and Wisconsin, and Administar was the fiscal intermediary for Illinois and Ohio. In 2007,
National Government Services assumed the business operations of United Government Services
and Administar. Therefore, this report refers to the two former fiscal intermediaries as “National
Government Services.”

We reviewed 88 payments totaling $2,433,498 that National Government Services made to 10
hospitals in Michigan, Wisconsin, Illinois, and Ohio. Each of these payments amounted to less
than $50,000 for more than 100 units of oxaliplatin.

OBJECTIVE

Our objective was to determine, for selected payments, whether hospitals billed National
Government Services for the correct number of service units of oxaliplatin.

SUMMARY OF FINDING

For all 88 payments reviewed, the 10 hospitals billed National Government Services for the
incorrect number of service units of oxaliplatin. As a result, the hospitals received overpayments
totaling $2,216,783 during CYs 2004 and 2005. These overpayments occurred primarily
because the hospitals did not update their systems following a change in Medicare billing
guidance.

RECOMMENDATION

We recommend that National Government Services recover the $2,216,783 in overpayments to
hospitals.




                                                i
NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our finding
and recommendation and said that it had recouped all of the outstanding provider overpayments.
National Government Services’ comments are included in their entirety as the Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION........................................................................................................................1

          BACKGROUND ...............................................................................................................1
              Medicare Fiscal Intermediaries..............................................................................1
              Outpatient Prospective Payment System ...............................................................1
              Oxaliplatin..............................................................................................................1
              National Government Services ..............................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................2
               Objective ................................................................................................................2
               Scope......................................................................................................................2
               Methodology ..........................................................................................................2

FINDING AND RECOMMENDATION...................................................................................3

          MEDICARE REQUIREMENTS.......................................................................................3

          INCORRECT NUMBER OF SERVICE UNITS BILLED ...............................................3

          RECOMMENDATION .....................................................................................................4

          NATIONAL GOVERNMENT SERVICES COMMENTS ..............................................4

APPENDIX

          NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments. The intermediaries’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. 1

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33 § 4523, Social Security Act,
§ 1833, 42 U.S.C. § 1395l, CMS implemented an outpatient prospective payment system (OPPS)
for hospital outpatient services. The OPPS applies to services furnished on or after August 1,
2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. During our audit period
(calendar years (CY) 2004 and 2005), Medicare required hospital outpatient departments to bill
one service unit for every 5 milligrams of oxaliplatin administered.

National Government Services

During our audit period, United Government Services was the fiscal intermediary for Michigan
and Wisconsin, and Administar was the fiscal intermediary for Illinois and Ohio. During that
period, the two fiscal intermediaries made a total of 7,200 payments of less than $50,000 each to
hospitals in the four States for oxaliplatin.

In January 2007, National Government Services assumed the business operations of United
Government Services and Administar. Therefore, this report refers to the two former fiscal
intermediaries for the four States as “National Government Services.”

1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173
§ 911, Social Security Act, § 1842, 42 U.S.C. § 1395u, requires CMS to transfer the functions of fiscal
intermediaries to Medicare administrative contractors by October 2011.


                                                      1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine, for selected payments, whether hospitals billed National
Government Services for the correct number of service units of oxaliplatin.

Scope

We reviewed 88 payments totaling $2,433,498 that National Government Services made to 10
hospitals for oxaliplatin during CYs 2004 and 2005. Each of these payments amounted to less
than $50,000. 2

We did not review National Government Services’ internal controls applicable to the 88
payments because our objective did not require an understanding of controls over the submission
and processing of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We conducted fieldwork from October through December 2008. Our fieldwork included
contacting National Government Services, located in Cincinnati, Ohio, and the 10 hospitals that
received the 88 payments.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify 7,200 Medicare payments less than
        $50,000 each made to hospitals in Michigan, Wisconsin, Illinois, and Ohio for oxaliplatin
        during CYs 2004 and 2005;

    •   selected for review 88 payments greater than $2,000 each made to hospitals with five or
        more claims for more than 100 units of oxaliplatin; 3

    •   contacted the 10 hospitals that received the 88 payments to determine whether the service
        units were billed correctly and, if not, why the service units were billed incorrectly; and

    •   confirmed with National Government Services that overpayments occurred and refunds
        were appropriate.

2
We limited our review to payments less than $50,000 because we previously reviewed payments of $50,000 or
more (report numbers A-05-07-00066, issued in March 2008, and A-05-07-00065, issued in September 2007).
3
 For materiality purposes, we excluded payments of $2,000 or less and payments for claims with 100 or fewer units
of oxaliplatin.


                                                        2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                FINDING AND RECOMMENDATION

For all 88 payments reviewed, the 10 hospitals billed National Government Services for the
incorrect number of service units of oxaliplatin. As a result, the hospitals received overpayments
totaling $2,216,783 during CYs 2004 and 2005. These overpayments occurred primarily
because the hospitals did not update their systems following a change in Medicare billing
guidance.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS’s “Medicare Claims
Processing Manual,” Pub. No. 100-04, chapter 4, section 20.4, states: “The definition of service
units . . . is the number of times the service or procedure being reported was performed.” In
addition, chapter 1, section 80.3.2.2, of this manual states: “In order to be processed correctly
and promptly, a bill must be completed accurately.”

For outpatient services furnished before July 1, 2003, CMS instructed hospitals to bill for
oxaliplatin using HCPCS code J3490. The service unit for that code was 0.5 milligrams.

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13, 2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code C9205 for
services furnished on or after July 1, 2003. 4 The description for HCPCS code C9205 was
“Injection, oxaliplatin, per 5 mg.” Therefore, for every 5 milligrams of oxaliplatin administered
to a patient, hospital outpatient departments should have billed Medicare for one service unit
during our audit period. 5

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CYs 2004 and 2005, the 10 hospitals billed National Government Services for the
incorrect number of service units on all 88 claims reviewed and, as a result, received
overpayments totaling $2,216,783:



4
 Although the American Medical Association’s 2004 HCPCS code book showed that code C9205 had been deleted
as of 2004, CMS notified hospitals to continue using that code for oxaliplatin for services furnished in 2004 and
2005 (68 Fed. Reg. 63398, 63488 (Nov. 7, 2003); 69 Fed. Reg. 65682, 66104 (Nov. 15, 2004)).
5
 CMS instructed hospitals to bill for oxaliplatin using HCPCS code J9263 for services furnished on or after
January 1, 2006 (70 Fed. Reg. 68516, 68632 (Nov. 10, 2005); CMS Transmittal 786, Change Request 4250
(Dec. 16, 2005)). The service unit for that code is 0.5 milligram.


                                                         3
   •   For 87 overpayments totaling $2,211,974, hospitals billed 10 times the correct number of
       service units for oxaliplatin furnished to Medicare beneficiaries. Rather than billing one
       service unit for every 5 milligrams of oxaliplatin administered, as Medicare required,
       hospitals billed one service unit for every 0.5 milligrams administered. Hospital officials
       stated that they had not updated their systems to accommodate the billing change
       required by CMS Transmittal A-03-051.

   •   For one overpayment totaling $4,809, a hospital incorrectly billed for 110 instead of the
       correct 52 units of oxaliplatin because of a clerical error.

RECOMMENDATION

We recommend that National Government Services recover the $2,216,783 in overpayments to
hospitals.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our finding
and recommendation and said that it had recouped all of the outstanding provider overpayments.
National Government Services’ comments are included in their entirety as the Appendix.




                                                4
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
